<html>
<title> - [H.A.S.C. No. 112-52]MILITARY VOTING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-52]
 
                            MILITARY VOTING

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 15, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
68-160                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
               Jeanette James, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, July 15, 2011, Military Voting...........................     1

Appendix:

Friday, July 15, 2011............................................    27
                              ----------                              

                         FRIDAY, JULY 15, 2011
                            MILITARY VOTING
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Carey, Robert H., Director, Federal Voting Assistance Program, 
  Defense Human Resources Activity...............................     4
Crepes, Dean, Director, Lexington County Commission of 
  Registration and Elections.....................................     7
Jackson-Gillespie, CPT Angel, USA, 2nd Brigade Combat Team, 101st 
  Airborne, Ft. Campbell, Kentucky, U.S. Army....................     6
Seiler, Deborah, San Diego County Registrar, Registrar of Voters.     9

                                APPENDIX

Prepared Statements:

    Carey, Robert H..............................................    35
    Crepes, Dean.................................................    47
    Davis, Hon. Susan A..........................................    33
    Seiler, Deborah..............................................    54
    Wilson, Hon. Joe.............................................    31

Documents Submitted for the Record:

    ``Military Voting in 2010: A Step Forward, But a Long Way To 
      Go,'' by Eric Eversole.....................................    69

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    89
    Mr. West.....................................................    89

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                            MILITARY VOTING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                             Washington, DC, Friday, July 15, 2011.
    The subcommittee met, pursuant to call, at 1:35 p.m. in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentleman, good afternoon. I would 
like to welcome everyone to a Military Personnel Subcommittee 
hearing on military voting.
    Today the subcommittee meets to hear the testimony on 
military and overseas voting from the Department of Defense, 
local election officials, and a military officer who was a 
voting assistance officer while deployed to Afghanistan during 
the 2010 election.
    Our witnesses have traveled a long distance to help us 
understand how members of the Armed Forces and their families, 
along with the U.S. civilians living and working outside of the 
United States, are afforded the opportunity to exercise their 
right to vote.
    I want to welcome our witnesses, and I look forward to 
their testimony.
    Voting is a fundamental and essential part of the 
democratic process. It is both our right and our duty as 
citizens of a democracy to set the direction of the Nation by 
selecting the individuals who will represent us at each level 
of government. This responsibility remains with us regardless 
of where we choose to live and work or, as in the case of our 
service members, where they are sent to defend freedom.
    For many years Congress has been concerned about military 
and overseas voters, who have told us about the difficulties 
they face when they try to cast their ballots. Registering to 
vote, receiving a ballot by mail, and returning the ballot by 
mail in time for the vote to count in an election when the 
voter is not physically located in the U.S. is challenging at 
best.
    One can only imagine the difficulty trying to accomplish 
the same process when the voter is at a remote outpost in 
Afghanistan fighting a war. Yet, these are the very individuals 
who through their military service protect our right to vote.
    Congress has worked hard over the last several years to 
ensure that the men and women assigned overseas on behalf of 
our country do not lose their ability to vote as a result of 
their service. A number of Federal laws have been enacted to 
enable the military and U.S. citizens abroad to vote in Federal 
elections.
    Most recently, Congress enacted the Military and Overseas 
Voter Empowerment--``MOVE''--Act as part of the National 
Defense Authorization Act for 2010. The MOVE Act required the 
Department of Defense to make several changes to the Federal 
Voting Assistance Program to improve the process by which 
military absentee voters cast their ballots.
    I look forward to hearing from our DOD [Department of 
Defense] witnesses how these improvements have been implemented 
within the Department. I am also interested to know how the 
changes to FVAP [Federal Voting Assistance Program] affected 
the military and overseas voter in the 2010 election. Were more 
military and overseas voters able to cast their ballots in time 
for them to be counted in the election?
    In addition, a successful military voting assistance 
program depends on the collaborative efforts of the Department 
of Defense with the military voting assistance officers in the 
field and State and local officials. I am very pleased we have 
two local elected officials with us today.
    First, we have from my home State, but more importantly to 
me home own county, I am very honored that we have the 
registrar and director of elections of Lexington County, South 
Carolina. And additionally, from San Diego, California, we have 
the registrar from the home of the ranking member, Susan Davis.
    We also have with us today a voting assistance officer who 
had to find a way to get deployed soldiers the election 
information they needed. I look forward to hearing their 
perspectives on how to best assist military and overseas voters 
cast an absentee ballot.
    I will close by saying that every day our troops lay their 
lives on the line to defend freedom, and it is our job to make 
sure they are not denied the right to vote.
    Before I introduce our panel, let me offer Congresswoman 
Susan Davis of California an opportunity to make her opening 
remarks.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    I believe it is so important that we are having this 
hearing today. We all know that voting is an important 
responsibility as an American citizen. It is fundamental to the 
continued success of our democratic society.
    Over the past several years Congress has taken significant 
steps to improve the voting process for Americans, and 
specifically for our military personnel and their families. The 
National Defense Authorization Act for fiscal year 2010 
included the Military and Overseas Voter Empowerment Act, which 
sought to further enhance the voting experience for military 
service members.
    And these included--and my colleague has enumerated some of 
them; if I may, I wanted to just broaden that a little even in 
the time that we have--included the requirement for States to 
send out requested ballots at least 45 days before an election, 
allows voter registration applications and absentee ballot 
applications to be sent by mail or electronically.
    It expands the use of Federal write-in ballots to include 
primaries, run-offs, and special elections. It prohibits States 
from rejecting otherwise valid voter registration applications 
on the basis of notarization requirements or restrictions on 
paper or envelope type.
    And it required the development of online portals of 
information and also required the service secretaries to 
designate offices on military installations to provide 
information on voter registration procedures and absentee 
ballot procedures, information, and assistance to military 
personnel.
    I am very interested in hearing from Mr. Carey, the 
director of the Federal Voting Assistance Program, on how these 
changes have been implemented by the States and the Department 
of Defense and what issues were found during the last election.
    I am also very pleased that we have Captain Angel Jackson-
Gillespie here from the 101st Airborne, who was a voting 
assistance officer while deployed in Afghanistan.
    I certainly hope that you will share with us, with the 
subcommittee your experiences and areas or issues of concern or 
success that you think will help us as we continue to improve 
the voting process for service members, their families, and 
Americans living and working abroad.
    We have two individuals who are directly involved in the 
process on the ground level. Mr. Dean Crepes, director of 
Lexington County Commission of Registration, South Carolina, of 
course, and Mrs. Deborah Seiler, registrar of voters from San 
Diego, California.
    I want to welcome you both and thank you for coming so far, 
particularly from San Diego, on such short notice.
    I invited Deborah to be here today not just because she is 
in my district, but because she runs a first-class operation 
and can make a valuable contribution to our hearing. San Diego 
is the sixth largest county in the country, and coordinating 
activities for 2,300 precincts and counting over 1.2 million 
ballots each election is difficult and probably feels at times 
like a thankless task.
    Deborah works tirelessly so that everyone gets a chance to 
vote and makes sure that everybody votes only once. Deborah and 
her staff put voters first.
    With about 100,000 Active Duty military personnel stationed 
at bases in our county, they take pride in making sure the 
registrar's office is attuned to the unique needs of military 
voters. And that is why they have been known to communicate 
with service members in the middle of the night and even 
coordinate ballot delivery with sailors at their next port of 
call.
    Mr. Chairman, let me welcome all of our witnesses. Thank 
you very much, again, for the hearing. I look forward to an 
open and productive dialogue.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 33.]
    Mr. Wilson. Thank you, Mrs. Davis.
    And we are jointed today by an outstanding panel. We would 
like to give each witness the opportunity to present his or her 
testimony and each member who is here an opportunity to ask 
questions.
    We will be looking for a summary of your written testimony 
that will be included in the record.
    Additionally, in particular I want to thank Mr. Robert H. 
Carey, director of the Federal Voting Assistance Program, the 
Defense Human Resources Activity; Captain Angel Jackson-
Gillespie, U.S. Army 2nd Brigade Combat Team of the 101st 
Airborne from Fort Campbell, Kentucky--and I am very grateful 
to know that she was also trained at Fort Jackson, South 
Carolina, so I know she has excellent training; and Mr. Dean 
Crepes, director of the Lexington County Registration and 
Elections Commission; and Mrs. Deborah Seiler, the San Diego 
County registrar of voters.
    And we will begin first with Mr. Carey.

    STATEMENT OF ROBERT H. CAREY, DIRECTOR, FEDERAL VOTING 
      ASSISTANCE PROGRAM, DEFENSE HUMAN RESOURCES ACTIVITY

    Mr. Carey. Thank you, Mr. Chairman, Representative Davis, 
members of the committee. Thank you for this opportunity to 
testify on military voting and the Department of Defense's 
Military Voting Assistance Program. I also thank you for 
including my complete written testimony in today's record.
    As you said, my name is Bob Carey, and I am the director of 
the Federal Voting Assistance Program and have been since July 
2009.
    After graduation from college, I joined the Navy, and I 
continue to serve in the Navy Reserves today. I have been both 
an overseas civilian voter and a military voter. I voted by 
absentee ballot for 21 straight years.
    With that experience, upon my arrival at the Federal Voting 
Assistance Program, we used data from the 2008 post-election 
surveys of military personnel and local election officials--
data, I may add, that has been developed statistically through 
a statistically rigorous survey methodology refined over 
decades--to restructure the Voting Assistance Program to more 
effectively support military voters' most personal needs.
    That 2008 election data showed the most significant problem 
for military voters was not registration. It was not even voter 
participation rates. When adjusted for the substantial age and 
gender differences between the general population and the 
military, the military was registered at and voted at higher 
rates in the 2008 election than did the general population.
    But when it came to successfully returning an absentee 
ballot sent to them, the difference was remarkable. Ninety-one 
percent of the general population successfully returned their 
absentee ballots in 2008, but only 62 percent of the military 
did.
    Given this, the Federal Voting Assistance Program shifted 
to a system of direct-to-the-voter assistance, predominantly 
through online tools, to allow the limited voting assistance 
officer resources to be more focused where needed and to serve 
more greatly the underserved and underperforming populations.
    To provide that direct-to-the-voter assistance, the 
Department automated the voter registration, absentee ballots, 
and back-up ballots forms with online wizards. Before, military 
voting assistance officers had to help the voter fill out the 
form by hand, referencing back to this 466-page compendium of 
various State laws and regulations regarding military voting.
    Now, the military voter can easily and seamlessly complete 
these forms online by answering a series of simple and 
intuitive questions, generally in the 5- to 8-minute range, 
even being presented all of their Federal candidates in the 
online ballot wizard as well.
    Additionally, the Department worked with 17 States to 
deploy fully automated online blank ballot delivery systems. It 
also provided for online marking in most cases, where the voter 
could access the complete ballot at a secure Web site and, in 
most cases, mark that online, print it out, sign it, and return 
it. Fourteen States also deployed their own online ballot 
delivery systems.
    The Department believes that such online ballot 
availability represents the best long-term method of ensuring 
voters have timely and successful access to all their ballots 
by allowing them to retrieve their ballot wherever and however 
they can.
    To raise voter awareness of these tools and keep voting 
deadlines, the Department also executed an aggressive, 
integrated, strategic communications plan to reach these voters 
through multiple communications channels, print and online 
advertisements. I think we have a couple of versions of that 
you can see. We ran full-page ads in a number of papers, 
including Defense Times, Stars and Stripes, Military Spouse 
Magazine, International Herald Tribune.
    We did an extensive social media campaign. RSS [really 
simple syndication] feeds, earned media, internal media, direct 
communications through unit and installation voting assistance 
officers, banners outside of installation gates and 
commissaries and exchanges, and force-wide emails were all used 
to inform military voters about upcoming elections, the 
procedures for registering and requesting an absentee ballot, 
and how best and most successfully to return those absentee 
ballots.
    The Federal Voting Assistance Program has and will continue 
to work very closely with the Services as they execute the 
installation voter assistance office mandate of the MOVE Act.
    However, the Department believes those mandates are costly, 
manpower intensive, and require significant effort for the 
Services to implement. Those implementing these programs in the 
field believe it may actually be counterproductive to an 
effective voting assistance office program by taking those 
resources away from the unit level, where they can be most 
precisely and quickly delivered.
    The Department believes all the new voting assistance 
requirements mandated by the MOVE Act at the installation 
level, including the voting assistance requirements of the 
National Voter Registration Act, can be more efficiently 
accomplished at the unit level at far less cost and with far 
greater effectiveness, and focus more specifically on deployed 
personnel and underperforming segments of the voting 
population.
    Legislatively, the Department believes the States should 
only need to report their military and overseas voting 
statistics to the Department of Defense. Currently, States 
report statistics to both the Department of Defense and 
Election Assistance Commission.
    The MOVE Act, however, made the Secretary of Defense the 
lead agency in post-election military and overseas voting data 
collection and reporting. Therefore, the Department recommends 
the Department of Defense be the sole data collection agency to 
reduce the survey burden on States and local election 
officials, and provide for full integration with the 
Department's other post-election surveys, which capture much of 
the voting behavior that cannot be captured by the reporting 
data that is provided by the States' election assistance 
commission.
    Mr. Chairman, Representative Davis, members of the 
committee, I stand ready for your questions.
    [The prepared statement of Mr. Carey can be found in the 
Appendix on page 35.]
    Mr. Wilson. Thank you very much.
    And, Captain.

  STATEMENT OF CPT ANGEL JACKSON-GILLESPIE, USA, 2ND BRIGADE 
 COMBAT TEAM, 101ST AIRBORNE, FT. CAMPBELL, KENTUCKY, U.S. ARMY

    Captain Jackson-Gillespie. Chairman Wilson, Ranking Member 
Davis, and distinguished members of the subcommittee, thank you 
so much for the opportunity to appear today and to represent 
the Army and the soldiers of the 101st Airborne Division, ``The 
Screaming Eagles,'' at this hearing.
    My name is Captain Angel Jackson-Gillespie from 526 Brigade 
Support Battalion. I am an adjunct general corps officer, and I 
have served on Active Duty for 9 years. I enlisted in 2001 and 
received my commission as an air defense officer in 2004.
    I served initially at Fort Bliss, Texas as an air defense 
platoon leader, company executive officer, and battalion S-1 in 
a Patriot air defense unit. I am currently the battalion 
adjutant for the 526 Brigade Support Battalion 101st Airborne 
Division. In this position, I am responsible for all personnel 
actions for a 970-soldier unit with a mission of providing 
logistical support to an infantry brigade combat team within 
the 101st.
    Currently, I serve as a voting assistance officer. Most 
recently, I served in this capacity during my unit's deployment 
to Operation Enduring Freedom from May 2010 to April 2011.
    During this time, I provided voting assistance to 
approximately 600 soldiers spread across a wide area of 
operations in RC [Regional Command] South, based outside 
Kandahar City, Afghanistan. I am proud to be able to say that 
the young soldiers I served with were well-engaged in the 
voting process, even while deployed in harm's way.
    While deployed, we requested and received voting 
information from the Federal Voting Assistance Program to 
ensure material was on hand for soldiers in theater. We used 
the Federal Voting Assistance Program Web site extensively, as 
it provided all the information we needed to assistance 
soldiers with both registration and absentee ballots.
    In addition, we designated primary and alternate company-
level voting assistance officers to further assist soldiers 
with the voting process. I received frequent emails from the 
Federal Voting Assistance Program on pending elections that I, 
in turn, disseminated to our company-level voting assistance 
officers.
    To assist our companies, my team and I also used a database 
to identify soldiers by home of record to notify them of 
upcoming elections. Additionally, I served as a voting 
assistance officer in several other positions prior to my 
current one. Over time I have seen significant improvement in 
access to voting assistance material.
    Thank you again for the chance to represent the Army and my 
unit by appearing in front of the subcommittee today. I look 
forward to answering your questions.
    Mr. Wilson. Thank you very much for your service.
    Mr. Crepes.

STATEMENT OF DEAN CREPES, DIRECTOR, LEXINGTON COUNTY COMMISSION 
                 OF REGISTRATION AND ELECTIONS

    Mr. Crepes. I am honored to be here, Mr. Chairman. Yes, I 
am. My name is Dean Crepes. I am the director of voter 
registration in Lexington County in South Carolina. And also, 
being a veteran myself, I always have voted. I joined in 1980, 
and in the Marine Corps to 1980, and I understand the need to 
provide this opportunity to bases, to all veterans worldwide.
    In 1992, the General Assembly passed legislation to allow 
electronic transmission of ballots in emergency situations 
only. In 1998, South Carolina participated in voting over the 
Internet, sponsored by the Department of Defense.
    South Carolina was not only the State participating, but 
the only State that participated on a statewide basis. In 2004, 
South Carolina was invited and readily accepted an invitation 
to participate in SERVE, Secure Electronic Registration and 
Voting Experiment.
    And unfortunately, this was cancelled by 2004, but in 2004 
HAVA [Help America Vote Act] came onboard then. The ballot 
request there with HAVA was for a period of two general 
elections. This requirement made it very difficult for election 
officials, due to the movement of UOCAVA [Uniformed and 
Overseas Citizens Absentee Voting Act] voters as much as they 
do, usually about 2 years at one place.
    And in the MOVE, the Military Overseas Voting Empowerment 
Act of 2009 removed that requirement and basically said we will 
remove that requirement. Instead annually, beginning 1 January 
of each year, we will start taking requests for absentee voting 
for that year. So we have already started taking this year for 
what we have in 2011 November for our municipal elections.
    To apply for a UOCAVA absentee ballot, just simply contact 
the office. We will direct them, if they are military, to a 
FPCA, which is a Federal postcard application. If they do not 
have one or have access to one, we will email one to them and 
have them fill it out and send it back to us. And upon 
conclusion of that, then we will file according to elections 
that that individual is authorized to vote in.
    South Carolina has approximately 82,000 voters that are 
covered by this act. Lexington County had, in 2008, in the 
presidential election--Lexington County, 89 percent for UOCAVA 
return rate, and 97 percent for non-UOCAVA.
    And in 2010, we had a 91 percent UOCAVA and a 97 percent 
for UOCAVA, so it is on the increase there. Next year, with the 
2012 presidential elections coming around, I expect that number 
to get even more, and even have more returns from there.
    In Lexington County, one individual with one email address 
is designated a responsible person, too, in this absentee 
UOCAVA voting process. He has a specific fax and email address 
for people to get into. So if someone comes into me, I 
immediately refer it to him. He takes care of all of the 
contacts needed to be to the UOCAVA voter there. We send out 
whatever needs to be done to get taking care of the individual 
there.
    Once the voted ballot comes in, it is immediately printed, 
is placed in an envelope and sealed, and then placed into a 
ballot box, where it is not touched again until Election Day. 
And that is where trained individuals, along with appointed 
election commission members, receive a note, open, duplicate to 
a hard ballot, which can be read off optically so we can 
basically get the tally of the votes in the night there.
    During the June primaries, which is when we have primaries 
in our State, we still have a majority vote. We have what we 
call instant runoff ballot, which is basically any office that, 
or party for any office that has more than two potential 
candidates per office, we have an instant runoff ballot, which 
basically has the choices listed--for example, first choice, 
second choice, third choice, fourth choice.
    That is sent along with the UOCAVA ballot for them to have 
that. It comes back to us, and we separate those two out when 
it comes back.
    The instructions on how to vote the instant runoff ballot 
are in there. Therefore, because it takes about approximately 
45 days for it to transit with mail, though, if we were to take 
care of problem at first with the instant runoff ballot, then 
we know exactly what the first, second, and, third, or fourth 
choices is for candidates, if there is a runoff.
    And then our commission duplicates that onto a hard ballot, 
which we can actually vote electronically--I mean, count 
electronically. My apologies there.
    In closing, the ultimate goal is to provide instant access 
to the voter registration. That is the process for UOCAVA 
voters. And I know this is all UOCAVA voters, but we give the 
same attention to any voter in Lexington County or South 
Carolina that wants to vote absentee.
    And voters and to some increased success rate for returning 
ballot percentage is equal to that of the general absentee 
voting population in this moment. Thank you. I will entertain 
any questions here also.
    [The prepared statement of Mr. Crepes can be found in the 
Appendix on page 47.]
    Mr. Wilson. Thank you very much. And I think it should be 
noted you are being very humble. The county that you represent 
is one of the fastest-growing counties in the United States.
    Mr. Crepes. Thank you.
    Mr. Wilson. And so as you approach issues, they are ever 
changing and ever getting larger. So, again, appreciate your 
service.
    Mr. Crepes. Yes, sir. They always said the good news is 
Lexington County is growing. The bad news is Lexington County 
is growing.
    Mr. Wilson. That is it. It is a challenge, and you face it. 
Thank you very much.
    Mrs. Deborah Seiler.

   STATEMENT OF DEBORAH SEILER, SAN DIEGO COUNTY REGISTRAR, 
                      REGISTRAR OF VOTERS

    Mrs. Seiler. Thank you, Chairman Wilson, Ranking Member 
Davis, and distinguished members of the committee for inviting 
me here today to testify regarding military voting. I am 
Deborah Seiler, registrar of voters for the County of San 
Diego.
    San Diego County is the second most populous county in 
California behind Los Angeles. And its population is greater 
than that of 21 States. It is home to a very large domestic 
military population in addition to military personnel stationed 
abroad. Most prominent installations known are Camp Pendleton 
and one home of the Navy SEALs out on Coronado Island.
    As registrar I am mindful of the unique challenges facing 
military and overseas voters. Military voters abroad are 
stationed in remote locations, where mail delivery can be 
delayed, and they may lack access to news regarding upcoming 
elections.
    The transitory nature of their assignments creates a 
challenge to register to vote timely and to maintain current 
address information. Our office has taken a series of steps to 
help these voters, beginning with the voter registration 
process.
    For the benefit of all voters, including those in the 
military, we have posted our county-specific voter registration 
form online for easy access at any time and from any location 
through the world. The form is interactive and prompts the 
voter to supply essential information. Because the voter keys 
in that information, the data we receive is legible and 
complete, and no follow-up is required with that particular 
voter.
    Our office also works hard to ensure military ballots and 
election materials are mailed on or before the 45th day before 
each election. Of course, many military voters do not register 
or do not update their mailing address until this 45-day 
mailing occurs. For these late registrants, we send frequent 
supplemental mailings. And as Election Day approaches, we 
increase our use of email and fax technology to distribute the 
ballots.
    For example, in October, prior to the November 2008 
presidential elections, we received an email from two Navy 
servicemen stationed in Iraq. The email was sent 25 days before 
the election, and the servicemen had not received their 
ballots, because they had not supplied us with their mailing 
address in Iraq, so the ballots went to San Diego.
    Staff emailed a second ballot to each of the two men, who 
both voted their ballots, scanned them, and returned them to us 
by email as a PDF document. They had no fax capability where 
they were deployed.
    Following that election, we were informed that the 
Secretary of State interprets California law to permit voted 
ballots to be returned by fax, but not by email, and we had to 
discontinue this process. California election officials are 
concerned with this law, because fax technology has become 
increasingly obsolete, yet email is prevalent.
    Nineteen States permit voter ballots to be returned by 
email, and California elections officials support legislation 
this year to permit this for our voters as well. The 
legislation was not approved, unfortunately, due to security 
concerns, and it is our opinion that these concerns are no 
greater for email technology than for fax technology.
    We have no evidence of any actual abuse, and we will 
continue to advocate for this technology for our military 
voters stationed abroad. My testimony contains additional 
information, examples of our service and other recommendations.
    I am happy to answer any questions from the committee.
    [The prepared statement of Mrs. Seiler can be found in the 
Appendix on page 54.]
    Mr. Wilson. Thank you very much.
    And thank all of you. The procedure we will be going 
through now is a questioning for a 5-minute period by each 
member who is here. We are very fortunate that Jeanette James 
has volunteered to keep the time to keep us within our limit.
    Beginning first, I want to defer immediately to Congressman 
Allen West of Florida. We are very proud that at 2:30 he has 
been selected to be the speaker pro tempore on the House floor.
    Mr. West. That is because everyone has flown out of here 
already.
    Mr. Wilson. This is a high honor that a retired colonel 
from the Army should deserve, so I defer to Colonel West.
    Mr. West. Yes. It is called being the low man on the duty 
roster.
    Thank you, Mr. Chairman and also ranking member.
    And thank you to the panel for being here. And as some of 
you know, I spent about 22 years Active Duty service in the 
United States military, so this is very important for me, for 
the friends of mine that are still out there, to include my 
young nephew.
    So, I have three short questions. The first question is, 
the Overseas Vote Foundation recently released its report from 
the 2010 election. One of the problems I see here is that 5,257 
military and overseas voters completed that survey, but only 
107, 3 percent of the respondents, were military.
    Is there any means or is there any thought about coming 
back and reconducting a survey in this year, or maybe something 
leading up to the 2012 election cycle, which maybe we can get 
an even better snapshot, as far as military respondents?
    Mr. Carey. Mr. West, if I may. The Federal Voting 
Assistance Program actually conducts a statistically random 
sample survey of all military personnel. And we have done that 
in 2006, 2008, 2010 and will continue to do that every 2 years.
    Mr. West. Okay.
    Mr. Carey. And that uses the status of forces survey 
methodology.
    This year we also initiated a survey of military spouses to 
see what their voting behavior is like. We are trying to figure 
out how to best be able to do one for overseas civilians, but 
we don't know what the total number of overseas civilians is in 
the first place, As well as doing, you know, Department of 
State voting assistance offices, military voting assistance 
offices and the local election officials.
    Mr. West. Okay. All right. Thank you.
    The next question, the MOVE Act said it would eliminate 
notarization requirements, but the report found that there were 
still many States where absentee ballots requested such 
notarization signatures. If you could provide back to this 
committee the States that maybe still made that a requirement 
in 2010, because that is something that the MOVE Act said we 
would get away from.
    But if there are still States out there requiring that, 
that is a violation of the MOVE Act. So if you could get that 
back to the committee, I would be very appreciative.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Carey. I will get that for the record, sir.
    Mr. West. Thank you. And last question, I spent 2\1/2\ 
years in Kandahar, so I know it very well. I appreciate your 
service there. And, of course, you understand the very remote 
nature of some of those forward operating bases we have.
    As a matter of fact, 3 weeks ago I visited a village 
stabilization platform. You know, now we are starting to push 
out our special operators into some very remote areas.
    When I look down and see that we are requiring 45 days--I 
mean the ballot has to be mailed 45 days out--when you think of 
some of these places where we have our special operators 
especially, but also now we are starting to use conventional 
forces in these areas, you take into account weather effects--
you know, sandstorms--you take into account the breakdown of 
aircraft, because we don't want people out doing many long 
logistical role type of convoys.
    Do you think, Captain Jackson-Gillespie that--looking at 
Tarin Kowt, Spin Boldak, some of those places--that 45 days 
from it being mailed here overseas is adequate enough time? Do 
we think we may need to extend that based upon some of these 
remote locations?
    Captain Jackson-Gillespie. Sir, I do believe 45 days would 
be enough time. It takes about 2 weeks for mail to get into 
theater and down to the FOBs [forward operating bases] where we 
are, and we immediately push mail out to those outlying COBs 
[contingency operating bases] and FOBs, sir. So I do believe 45 
days would probably be substantial.
    However, if they are standing up, you know, further out, 
any time you stand up a new unit, it is going to take time to 
establish a system to get mail and communications out to those 
FOBs and COBs. So once established, I think it is enough time, 
sir.
    Mr. West. Okay. And final question, you know, any good 
commander before they go into a military operation, they do a 
rehearsal. Is there a possibility that before we get into the 
next major general election cycle in 2012, we may just look to 
do a snapshot rehearsal of this voting procedure to see if 
there are any, you know, possibility of, you know, glitches, 
obstacles, loopholes, so that we can have lessons learned, we 
can apply them by the time we get to November 2012?
    Mr. Carey. We will definitely look into that, sir. I think 
it would be something we could definitely try to see if it is 
possible.
    Mr. West. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Colonel.
    And at this time we proceed with Mrs. Susan Davis of 
California.
    Mrs. Davis. Thank you, Mr. Chairman.
    And if I could start with you, Mr. Carey, we all know how 
critical this is, certainly for those who have sacrificed so 
much for our country to make sure that this works well.
    And we know that there certainly were some glitches. But I 
also know that we tried to put this on a pretty short timeframe 
from the time it was enacted to the time everybody had to move 
forward with the 2010 election, which, as I understand it, 
ordinarily if we have to make a major change, we have about 2 
years to do that.
    So I wonder if you would address some of the concerns that 
people have and if you think that these were just some one-time 
issues, as people were adjusting to changes in the regulations 
that the MOVE Act required, or what of those problems are we 
likely to see again?
    What is perhaps systemic in that, that would be a problem? 
And I know you talked about the unit level and how important 
that was.
    Mr. Carey. Yes, ma'am. For the installation voting 
assistance office program, the continuing resolution continuing 
through April was problematic in that it prohibited new starts 
and made it difficult for the Services to be able to start up 
the program.
    And we are essentially, making these programs out of whole 
cloth at the instillation level when, in fact, for a long time 
we have been doing it at the unit level.
    The other issue is that the change of duty station process 
is migrating from the installation level to the unit level, 
supported by online applications. Whereas before you would go 
to the readiness support group or the joint administrative 
center or the personnel support detachment and talk to the pay 
folks and the medical folks, now you are doing that all at the 
unit level.
    And I am concerned that we are going to leave an orphaned 
voting assistance program at the installation level. And, 
frankly, it is going to be very difficult for people to 
understand why they have to leave their unit, go to the 
installation, when they can just talk to the unit voting 
assistance officer and get it that much quicker.
    So that is probably one of the big concerns about this. I 
mean, the Services are trying to move heaven and earth to make 
this happen as soon as possible, but given the hiring freezes, 
the civilian personnel cuts, it is difficult to just turn this 
on.
    Mrs. Davis. Well, thank you. And so those are some things 
that we should be anticipating or could be problematic.
    Mr. Carey. Well, I think that, approximately 80 percent of 
all the installation voting assistance offices are now 
established. The Marine Corps says that they will have all 18 
of theirs up and running by August 11th, and I believe that the 
Air Force will have all theirs up and running by the end of the 
fiscal year. That will complete all the Services.
    Mrs. Davis. So----
    Mr. Carey. So I think that we will have a much better 
ability. But there is still the issue of, might we be able to 
spend these resources better, if we focus it at the unit level 
and allow it to be a little more tailored?
    Mrs. Davis. Yes. Thank you I appreciate that. And certainly 
it seems to me that there is also an education issue here as 
well, encouraging and making sure that service members are 
voting, that they know that actually there is a lot of 
assistance out there for them. And we want to make sure that 
they know that. Thank you.
    Mr. Carey. Yes, ma'am.
    Mrs. Davis. I wanted to turn to Mrs. Seiler just to look at 
some of the ways in which, I think, we can actually make this 
better for our military and overseas voters and to enable them 
to be able to track their ballots, which is an issue that we 
certainly have been involved in.
    And I wonder if you could tell us how tracking is working 
and how you might think this might serve the military voter?
    Mrs. Seiler. Well, thank you.
    Mrs. Davis. And maybe you can explain for me what that 
means first.
    Mrs. Seiler. Okay.
    Mrs. Davis. Thank you.
    Mrs. Seiler. Let me just tell you that in our office in 
2008, we implemented the ballot tracking system, both, 
actually, for ballots as well as for voter registrations.
    So currently any voter from any location throughout the 
world can log into our Web site. They can determine what their 
voter registration status is. They can determine their 
political party. They simply have to enter their birth date, 
their home address, and their Zip Code, and they can figure out 
if they are registered to vote.
    We have had about 350,000 hits on that site since we 
implemented it in 2008, so it is working very well.
    In addition to tracking the voter registration status, of 
course, voters can track to determine whether their mail ballot 
has been issued and whether it has been returned.
    For example, in the 1-month, the 29-day period prior to the 
November 2010 election we just had, we had about 156,000 people 
access that site. So we have had tremendous success with our 
ballot tracking program.
    Mrs. Davis. And we are acknowledging that is something that 
certainly Californians can do that. They can track their 
ballots. But individuals in other States cannot at this time. 
So we are really learning from the military and I appreciate 
that. Thank you.
    Mr. Wilson. Thank you very much.
    And we now proceed to Mr. Coffman, of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, Mr. Carey, if we accept your assertion that 
recent reports are skewed as to military voting participation 
and participation rates were not worse in 2010 compared to 
2006, it still doesn't appear as if the situation has 
significantly improved.
    And with the 2012 election cycle starting in a mere 6 
months, I don't see us on track to see increases next year 
either. What will be improved between 2012 and 2010?
    Mr. Carey. Thank you Mr. Coffman. I would say, first, there 
was a substantial improvement between 2006 and 2010.
    The 2006 voter participation rate from the Active Duty 
military survey showed a 22- to 24-percent voter participation 
rate. And in 2010, we are showing approximately a 29-percent 
voter participation rate. Now, that is about a 20- to 30-
percent increase. And the regular voter participation rate for 
the general population was only about 41 percent.
    Now about half the military, 60 percent of the military is 
under 29, but only about 20 percent of the general population 
is. And voter participation rates for the younger voters are 
much lower. So when we do that age and gender adjustment, the 
military voter participation rate has--in 2008 and it appears 
to be in 2010; we are still finalizing those numbers--appears 
to exceed that of the general population.
    The one cohort, the one age cohort we are having problem is 
in the 18- to 24-year-olds, with which we identified in the 
2008 post-election report. And so we are trying to expand that 
ability to reach out to the 18- to 24-year-olds, as well to the 
military spouses.
    We have a $16.2 million program that just closed out, grant 
program to the States to be able to deploy even more online 
ballot delivery systems that we can then direct the voter to 
through our online portal.
    And then we are also working with the military postal 
system in order to be able to improve even more upon their 5.2-
day ballot return average time, in order to be able to try to 
improve those rates, sir.
    Mr. Coffman. Let me just say as someone who served in Iraq 
with the United States Marine Corps and was not able to vote in 
my own State's election in 2005, I take this issue pretty 
seriously.
    And let me just say this as well, that I think comparing 
the young men and women to the same age demographic of their 
civilian counterparts is a real, I think, understatement as to 
really the quality of our men and women in the military. I 
mean, according to the U.S. Army, 70 percent of young people 
today are ineligible to enlist in the U.S. Army. So I think 
probably you might reexamine that.
    To the voting assistance officer, Captain, in your 
experience would military voters be willing to sacrifice the 
privacy of secrecy of their ballots in order to return the 
ballots by fax or email, rather than through the postal system?
    Captain Jackson-Gillespie. Sir, I can't speak for all 
military personnel. I think of those who are going to vote and 
are willing to vote, they would probably have their vote 
counted whichever way they can. And especially in a deployed 
environment, they would probably use those tools by email, if 
they could.
    So can't speak for all, but I know I would, sir.
    Mr. Coffman. Thank you.
    And let me ask a question to the election officers, to both 
of you. Do you send the absentee ballots by military voters 
separately? Or are they sent in the same way as regular 
absentee ballots?
    I know that certain States--and this has been problematic 
for certain States--given their schedule for primary elections 
and stuff like that, they differ. But I know Colorado had 
difficulty complying with the requirement.
    Mrs. Seiler. Thank you, sir. In San Diego County, we have 
for many years been sending our military ballots at 45 days 
before the election to those voters in combat zones. We had 
worked this out with our U.S. Postal Service representatives. 
We worked very closely with them, and they had advised us that 
45 days was a good target date for people in combat zones.
    Then we were mailing at 39 days for those people in non-
combat zones. With the MOVE Act, we have changed that now so 
that all of those military and overseas ballots go out at 45 
days for all elections. And this is not simply for the Federal 
elections, but we try to meet that target for every election.
    Mr. Coffman. Okay.
    Mr. Crepes. Yes, sir. We have two ways, and we do email or 
fax ballots after they have been qualified for an election. 
Now, we do have a cover sheet that goes along with it they have 
to sign, letting them know they understand that this is done by 
maybe unsecured means of transmitting the ballot.
    But when the ballot comes back to us, it is immediately 
printed and stuffed in an envelope, and then put in a ballot 
box, and immediately taken off of the computer that the person 
received it in, and then put onto a separate file.
    Also, the other one, we have an envelope here that is a red 
envelope, that is a sort of an attention-getter to the U.S. 
Mail to ``This is a UOCAVA ballot; make it happen pretty 
quick.'' And 45 days has been adequate with us there, sir.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you very much.
    And we proceed with Dr. Heck, of Nevada.
    Dr. Heck. Thank you, Mr. Chairman.
    The first question I have is what kind of recommendations 
would you make to strengthen the safeguards put in place by 
UOCAVA and the MOVE Act, because I am looking at the report 
from the Overseas Vote Foundation for the 2010 election 
results, and they still report that 33 percent of military and 
overseas voters reported attempting to vote, but were unable 
to, because they didn't receive their ballot or they received 
it too late.
    And so we have heard that 45 days is enough, but 33 percent 
attempted, but didn't get it in time or didn't get it back in 
time. And while that represented a decrease from 50 percent for 
2008, I think we would all agree that 33 percent is still 
unacceptable for our oversea voters.
    In addition, I find it odd that they said that those who 
used electronic means to request a ballot were less likely to 
receive a ballot than those who did not, and that although the 
MOVE Act eliminated requirements for notarization, some States 
continue to require that.
    So what would the recommendations be from those of you on 
the panel to strengthen these safeguards to make sure that 
everybody gets their ballot in time and can return it in time 
and make the process easier?
    Mrs. Seiler. Okay. Thank you, sir.
    One of the recommendations that we would like to offer, if 
it were possible, would be to ensure in some manner that we 
have current, up-to-date mailing address information. As I said 
in my testimony, for those voters who are registered with us 
and have up-to-date mailing information, we can send that 
mailing out at 45 days. It is highly effective.
    It is those personnel whose address has changed and we 
don't know about it until after that 45-day mailing that, I 
think, are really what is creating the issue for us, and for 
the voter. And, in those cases, we do. We send our supplemental 
mailings. We send ballots by email, by fax, however we can get 
the ballot to them. But the time is shortened.
    If there was some semi-automatic way that we could be 
informed, maybe if we had access to a database that the 
military services provided, so that we could match our database 
against a database provided by the military that indicates 
movement, so we could capture that at, say, 55 days before the 
election, we would have those updated addresses ready to go for 
that 45-day mailing. I think that would be a huge benefit to us 
and to the voters.
    Dr. Heck. Anybody with any other recommendations?
    Mr. Carey. Sir, to follow up on that, we have a system in 
place to be able to try to provide updated addresses. The 
problem is that--I believe it is 10 USC Section 123 prohibits 
the Department from releasing the mailing address of military 
personnel assigned to a deployable unit. And so that limits our 
ability to be able to--and I am not exactly sure of that title 
and section. I know it is 10 USC, but I think it is Section 
123.
    And so that might be something that needs reconsideration. 
We are working with the Defense Manpower Data Center to see if 
we can actually open up the DEERS [Defense Enrollment 
Eligibility Reporting System] or the DEEDS [Data Elements for 
Emergency Department Systems] database to State election 
officials, and maybe the adjutants general, to be able to 
provide some method of address verification as well.
    Dr. Heck. I guess, then, that would kind of bring me to my 
second question to the captain, being a voting assistance 
officer. What kind of outreach, specifically, let us say, the 
Army--what are you doing to make sure that those that are 
deployed know that you are there and know--I mean, I am sure if 
they don't know that they have to get their address updated or 
whatever, you know, before 45 days, so you have 45 days to turn 
it around, it makes it more difficult.
    I know that when I was deployed to Iraq, there was a poster 
on the wall that said if you have any questions, you know, here 
is your VAO [voting assistance officer]. But that was it. I 
mean, I never met the VAO. I knew nothing about it. And I had 
to go seek the VAO out. So what kind of proactive outreach are 
we trying to do?
    Captain Jackson-Gillespie. Thank you, sir. At my level, we 
have voting assistance officers at the battalion and each of 
the company levels. We receive information from the Federal 
Voting Assistance Program, and we push that information down to 
the company level.
    We also get the posters off of the Federal Voting 
Assistance Program Web site. We hang them up. But we can't 
force soldiers to come into our office. I can't force a soldier 
to go in and see his voting assistance officer. We make it 
known who we are, where we are, and it is on the soldier to 
come in and talk to us, sir.
    Dr. Heck. All right.
    Captain Jackson-Gillespie. We will provide them with 
whatever assistance they need. If they need to know when an 
election is happening, we will give them that, how to request a 
ballot, how to register to vote. We get all of that information 
from the Federal Voting Assistance Program Web site, and we 
pass it on to the soldier and allow them to use our computer, 
sir.
    Dr. Heck. Is it a passive process, or is it active? Are you 
out there holding briefings or, you know, telling folks you are 
there, because I am sure that the folks that are deployed at 
the COBs and FOBs have a lot of other things on their mind than 
coming to seek you out.
    Captain Jackson-Gillespie. Yes, sir. We are out there as 
much as we can be. We are out at COBs and FOBs, and we can have 
soldiers from anywhere from three to five to seven different 
COBs at one time.
    And soldiers may be out, and then they come back in. But we 
are out there as much as we can be, sir. We let them know who 
we are. We push information out to the units that those 
soldiers are assigned or attached to.
    And every battalion has voting assistance offices. So 
whatever battalion they are attached to, they can go and see 
another voting assistance officer. It doesn't have to be the 
one in their own unit.
    Dr. Heck. All right. Thank you very much.
    Thank you, Mr. Chair. I yield back.
    Mr. Wilson. Thank you very much.
    And we will proceed now to Mrs. Hartzler, of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    This is such an important hearing. Last year, as I went 
through my district--I have Fort Leonard Wood and Whiteman Air 
Force Base--I can tell you, at almost every town hall that we 
had, this issue came up. And the outrage and frustration of 
people that the thought that we have men and women in harm's 
way, putting their life on the line and then not being able to 
vote, is just abominable.
    And so I am so glad we are having this hearing, and I 
appreciate your efforts to try to make sure that they have a 
right to vote.
    But I wanted follow up on--I was, too, like Dr. Heck, was 
concerned about this report that one out of three soldiers 
reported that they wanted to vote, but failed to do so because 
they didn't receive a ballot or because the ballot was too 
late. That is just shocking, and it is unacceptable.
    And I wanted to just clarify again, what are the reasons 
that one out of three soldiers who wanted to vote couldn't. 
What are the problems? You mentioned the addresses. But, Mr. 
Carey, what other problems are there that could cause that?
    Mr. Carey. Well, we had problems also with ballots getting 
out late, past the deadline. A case in point, New York was 
granted a waiver, because they had a very aggressive ballot 
delivery process in place, and they even missed that deadline. 
And that was 50,000 ballots that were delivered 7 to 12 days 
after the waiver deadline that they were given. And then, 
Illinois had a number of problems as well. That was about 4,000 
ballots.
    Another part of this--but I go back to being able to post 
these ballots online. The issue abut posting the ballots online 
is that you don't have to wait for your ballot to arrive by 
mail. You can go online. You can download it, and you can print 
it out, and you can vote it.
    Now granted, there are going to be people that are going 
to, you know, not have that online access. And we are working 
with the MWR [morale, welfare, and recreation] cafes. There are 
1,000 MWR Internet cafes in Iraq and Afghanistan, and 135 of 
these mobile ones.
    We are working with them in order to be able to try to put 
the widgets on those desktops in order to be able to provide an 
easy access, as well as printers, in order to able to see if 
they can actually get this printed out. But that to me 
represents the long-term solution.
    Mrs. Hartzler. Sounds good.
    Mrs. Seiler, you mentioned you are advocating for the email 
versus the fax, because there aren't many fax machines, and you 
mentioned online. So what is the difference here? With an 
email, would it be scanned? I assume you would scan it and then 
email it?
    Mrs. Seiler. That is correct. And that is what these voters 
did. They scanned those voted ballots, and they emailed them 
back to us. And then they have the same privacy protections, or 
attempted privacy protections.
    Obviously, it is a hard copy ballot coming in. But we make 
every effort, as does my colleague, to make sure that that is--
once the signature is verified, the ballot is separated. And 
then it is duplicated onto a ballot, once it is separated from 
its cover sheet. So we make every effort to really preserve the 
privacy of the voter to the greatest extent possible.
    Mrs. Hartzler. So to be able to do the email voting, you 
would have to change laws? Is that what you are saying?
    Mrs. Seiler. California's law would have to be changed.
    Mrs. Hartzler. Oh, California's law.
    Mrs. Seiler. So that is what we are seeking. The laws vary 
from State to State on this, apparently. And our group of 
election officials in California is supporting legislation to 
allow us to accept those email ballots.
    Now, this is on the return side. We are able to email the 
ballots out, so that is not an issue. If we get very close to 
an election----
    Mrs. Hartzler. Right, right.
    Mrs. Seiler [continuing]. Somebody calls from Iraq, we can 
email that ballot to them.
    Mrs. Hartzler. Okay.
    Go back to the States, Mr. Carey. I know I had heard as 
well that there are certain States, due to the primaries and 
other issues, that were kind of the hold-up in this. What can 
be done, or what needs to be done within these States, to help 
get them out? Do they need to change their primary dates, or do 
we need to change--what do we need to do here?
    Mr. Carey. Most States are responding by changing their 
primaries. Some States with late primaries also have very quick 
canvassing and election result turnarounds, and so they are 
able to actually get the ballots out 45 days prior, even with 
late primaries.
    But for most States, they have more extensive post-election 
canvassing requirements, and so it requires them to, if they 
are going to be able to get the ballots out 45 days prior, most 
States are saying they have to change their primary date.
    Mrs. Hartzler. Have any of them done that yet?
    Mr. Carey. Yes, ma'am, a number have, including a number 
that were granted a waiver in the 2010 cycle. So they probably 
won't be needing another late primary election waiver.
    Mrs. Hartzler. Okay. Very good.
    Well, thank you for your efforts. Keep it up, and please 
continue to do everything possible to make sure that our 
soldiers' vote counts, because they are the reason we are able 
to vote and have freedoms.
    Thank you.
    Mr. Wilson. Thank you very much, Mrs. Hartzler, for your 
leadership on this issue.
    It is now my turn. And I, again, I am just so grateful for 
all of you being here today. You really are giving us great 
information. I would also like to point out that this week we 
received a report, ``Military Voting in 2010: A Step Forward, 
But a Long Way To Go,'' by Eric Eversole. This is by the 
Military Voter Protection Project. We will be providing this to 
all the committee members.
    It is a study published by the Military Family United's 
Military Voter Protection Project and the AMVETS [American 
Veterans] Legal Clinic at the Chapman University's School of 
Law. And at this time, I would like to move unanimous consent 
that it be included in our record.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Wilson. Hearing no objection, it is included.
    I would like to reference part of this report, and that is 
the fact that it was also in an article by J. Christian Adams 
in the Examiner--The Washington Examiner--that, sadly, 14 
States and the District of Columbia failed to comply with the 
45-day standard. As a former election commissioner, that really 
startled me. I can remember in the campaign, hearing over and 
over again where States did not comply with the 45 days.
    But I would like to hear how it was done. And so, Mr. 
Crepes, how was the 45-day preparation of the ballot achieved 
in Lexington County?
    Mr. Crepes. Thank you, Mr. Chairman.
    Well, the 45 days--we are one of the larger counties in 
South Carolina. There are about 10 large counties, and we are 
number four or five. It depends on which way you hold your head 
when you are counting on the day there. We are one of the ones 
that get our ballot styles up and checked and authorized first, 
and so we are able to get out to 45 days.
    But there is no county in South Carolina does not meet the 
45-day deadline. If you do, we have to answer to a lot of 
people, and we don't want to do that. Last election we were 55 
days in Lexington County getting the ballots mailed out, so we 
don't have problem at all with the 45 days there.
    Mr. Carey, if I may back up for a moment, we were talking 
about having the vote go online and view his or her ballot 
style online there. The problem with that in Lexington County 
and some of the other larger counties, we have 70 to 110 
different ballot styles in some of our counties because of 
school boards, et cetera, we have on our ballots.
    We would still have to come up with some sort of electronic 
way to match that person through the system to a specific 
ballot, because we can have one person on one street corner, 
and his neighbor next door would be on a totally different 
ballot style. And I have had a lot of problems with that, 
calling and saying, ``Well, so-and-so voted this way.''
    That is something I think we ought to look into with the 
ballot style, that you would be able to view them online and 
possibly even vote online.
    Mr. Wilson. And, Mrs. Seiler, how did you address that in 
San Diego?
    Mrs. Seiler. Thank you, Mr. Chairman.
    We addressed this by our filing period ends 88 days before 
the election. Very often there is an extension. We, too, have 
hundreds.
    We have up to 600 different ballot styles, but we work very 
closely with our printer, so we have--it is a tight deadline 
for us, but we are working constantly with our printers to make 
sure that our ballot layouts are sent to them, and that they 
are ready to go and that everybody who is on our military and 
overseas file as of the 54th day is in that 45-day mailing.
    So it is really just a process that we have honed by 
working with our suppliers.
    Mr. Wilson. Well, I am really impressed by both of your 
positive attitude, because it would be easy to point out that 
you have split precincts, you have referendums, you have 
municipal elections, you have incorporations, you have 
annexations. And that you didn't complain, I am impressed.
    At the same time, Mr. Carey, you have also been working 
with local election commissions in regard to the 45 days. What 
kind of advice have you given them?
    Mr. Carey. If they have compliance problems, we have 
offered to help them as much as possible. We were actually able 
to find some unique solutions to some States who were having 
concerns about not being able to get the ballots out 45 days 
prior. And we were able to examine their requirements and 
actually recommend some unique solutions that allowed a lot of 
them to get the ballot out on time.
    The biggest thing is going back to the online system. For 
our 17 States we were able to have precinct-level ballots that 
were down to the individual precinct, delivered to the voter 
online--statewide systems for $65,000 to $75,000. So that 
represents to us a real good opportunity in order to be able to 
reduce the burden of filling absentee ballots and stuffing the 
ballots and getting them sent out.
    Mr. Wilson. And as an indication of how important what you 
are saying and how important this is to the American people, we 
will have a second round and begin with Mrs. Susan Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I think it is clear from a lot of the comments that you 
have made, in many ways the MOVE Act is leading the way and 
doing some things that perhaps are not being done in States. 
And one of the things that was actually eliminated is the 
notary signature. And I understand, neither Mr. Crepes nor Mrs. 
Seiler, you have that requirement in your State.
    But is that a problem, do you think? Have you seen any 
reason why that was perhaps not something that should have been 
part of the MOVE Act? How would our soldiers have found those 
notaries in the field?
    Mr. Crepes. Well, actually, it is not a notary for us. It 
is just a witness signature. It has been eliminated from the 
UOCAVA requirements on our ballots there. That is how we can 
email them back and forth. But it is not eliminated for the 
average citizen in the county there.
    Mrs. Davis. Is there something we can learn from that, Mrs. 
Seiler?
    Mrs. Seiler. California has not had a notary requirement 
for mail ballots, to my knowledge. We have had a requirement 
back in the late 1970s that people had to supply a reason. And 
that was eliminated in 1979. And we have had complete no-excuse 
absentee voting since that time.
    And I think that what we learned from that is that voters 
love it. And it has really--we have been promoting a permanent 
vote-by-mail for our domestic military, as well as our overall 
population of voters. And we have seen our turnout really rise 
above the statewide average and above that of all of our 
neighbors in Southern California.
    Mrs. Davis. As we think about electronic voting in the 
future, too, is there any reason that people should be 
concerned about some of the fraud issues that are raised often 
when it comes to absentee voting?
    Mrs. Seiler. In San Diego County, we check every single 
return envelope that arrives in our office. And we actually 
compare the signature on that envelope with the signature that 
we have on file. So we believe that the process is very fair, 
very precise, very clean. And we do not believe that we have 
evidence of any kind of widespread fraud in our mail ballot 
voting.
    Mr. Carey. Representative Davis, on the notary issue, the 
law actually says that the State cannot reject a ballot for not 
having a notary. The MOVE Act doesn't say that the State can't 
ask for a notary. And we can't compel the States to take that 
off their books or take that off their ballots. So that might 
be something if you are looking at, you know, how that issue 
could be addressed, that might be one of those aspects.
    As far as the Federal Voting Assistance Program right now, 
we are not participating,we don't have programs right now for 
the electronic return of a voted ballot. You know, we are not 
doing an Internet voting program, although there was voting 
over the Internet in 2000 or the SERVE [Secure Electronic 
Registration and Voting Experiment] Project in 2004.
    There is a requirement in the National Defense 
Authorization Act of 2002 and 2005 that the Department field an 
electronic absentee voting demonstration project where military 
voters can cast their ballots in a Federal election. And it 
allows us to wait until the Election Assistance Commission has 
developed guidelines.
    We are working very closely the Election Assistance 
Commission and the National Institutes of Standards and 
Technologies to develop that, but that is a requirement on the 
Department of Defense to eventually be working towards fielding 
an Internet voting system.
    Mrs. Davis. And as far as you know, from what you have seen 
to this date, are there any issues that would jump out at you, 
that you think would need to be addressed at that time?
    Mr. Carey. We are exploring a lot of those issues. I mean, 
we are not at the point where we believe that we can reliably 
deploy an Internet voting system by the Department of Defense.
    There is benefit in the diversity of the election system 
that we have right now. With 7,800 election jurisdictions, 
being able to attack any one jurisdiction's election system 
will have a lot less effect than attacking, let us say, a 
centralized DOD system. So that, in and of itself, provides a 
lot of security, I think, that needs to be weighed in any of 
those analyses.
    Mrs. Davis. Thank you.
    And if I could, quickly, Captain Jackson-Gillespie, I am 
sure that from where you sit, you would love to see everyone 
out in the field--FOBs, everyone included--be serious and 
interested in voting. But that probably isn't a reality that 
you deal with every day.
    Is there anything that you think could be done to encourage 
even more than what you are doing in the outreach that would 
change the statistics? Or is it really that people are very, 
very focused on the job at hand, and they are just not as 
engaged in it, because they are away from their communities?
    Captain Jackson-Gillespie. Thank you, ma'am.
    I do believe that once you are in-theater, you are very 
focused on your mission at hand. I mean, that is your priority 
while you are there. I can't say that there are those that 
wanted to and couldn't vote, because I don't know.
    I do know we assist where we can. And in my unit, we have 
also--or units that I have been in--we would incorporate voting 
assistance with other things that we had going on, like a 
personal asset inventory, where we account for everybody. And 
at that time, where they are signing their name saying, ``Hey, 
I am present and accounted for,'' ``Hey, have you registered to 
vote? Do you have--do you need any assistance with registering 
to vote?''
    So we would possibly incorporate it with something else. 
But we do what we can to help everybody out. And I think those 
who really want to vote, we are able to help them.
    Mrs. Davis. Thanks very much. Thanks for what you do.
    Mr. Wilson. Thank you very much, Mrs. Davis.
    And we now proceed to Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, let me just say for the record that I, along 
with many Americans, are not supportive of Internet voting and 
am, in fact, deeply opposed to it. And I understand scanning 
documents and then emailing them, where you have a hard copy, 
which is a voted ballot, I certainly understand that, but, 
obviously, concerned when it goes beyond that.
    Let me just say this. In the State of Colorado, election 
law is that we don't have same-day registration. So if somebody 
shows up to the polls, and they are not shown as registered to 
vote in the poll book, then they are handed a provisional 
ballot. And they vote that provisional ballot, and that ballot 
is kept separate.
    And then the respective county clerks then vet that ballot 
to make sure that that person had the legal right to cast that 
ballot. And so, actually, the election isn't closed out and I 
think the county clerks have a couple weeks to do that. So the 
election isn't closed out for a couple weeks.
    But if a military ballot arrives 1 minute after 7:00 p.m. 
on the Tuesday of the election, it doesn't count.
    And so has there ever been consideration, absent the focus 
on Internet voting, for those ballots that come--having a 
standard across the country, just as we have the 45-day 
standard, that if the ballot is shown to be having been mailed 
from the overseas duty station prior to the election, that in 
fact that ballot be counted in the same way that a provisional 
ballot be counted?
    Mr. Carey. The Department of Defense recommends to the 
States that they allow up to 15 days after the election for the 
ballots to be returned, so long as they are voted by Election 
Day. And a number of States have that, or better. But many 
States also require the ballot to be returned on Election Day.
    Mr. Coffman. Okay.
    And let me just say having served in a forward operating 
base in a fairly remote area on the western side of Iraq, the 
mail system was abysmal--I mean, just actually abysmal by the 
time it got to us or by the time it got out, as well as we 
didn't have fax machines or--there was very little connectivity 
out there.
    So I think that that is something that we ought to look at 
in terms of having a uniform standard, just as we have now on 
the registration system. And I think also on--I understand that 
there were a number of States that were not in compliance with 
the act in the last election cycle for a variety of reasons, 
but just say the 45-day requirement.
    What, I mean, were actions taken by the Justice--some 
States applied for waivers but I don't think any waivers were 
granted, it is my understanding. Maybe you can respond to that?
    Mr. Carey. There were 12 original applications. One State 
withdrew. Of the remaining 11, six were denied, five were 
granted.
    Mr. Coffman. Oh, five were granted?
    Mr. Carey. And of the five that were granted, one failed to 
comply. I personally called up the election officials to tell 
them what their status was. The Department of Justice was with 
me on the calls to the States that were being denied waivers.
    And the Department told them immediately that the assistant 
attorney general was authorized enforcement action and they 
would like to enter into negotiations at that point with the 
State in order to be able to figure out the best resolution.
    Mr. Coffman. Was action taken, though? I mean I don't see 
where formal action was taken by the Justice Department, as it 
would occur on another voting rights issue. Did the Justice 
Department take formal action and sanction any of these States?
    Mr. Carey. Yes, sir. In all 14 of these States, the 
Department of Justice either took onboard, I believe--I don't 
know the exact terminology; I would have to ask the Department 
of Justice. The States took effective action themselves and the 
Department accepted that. Or they actually went to Federal 
court and either got consent decrees or got a Federal decree 
from that Federal court. But in all these cases, action was 
taken by the Department of Justice.
    Mr. Coffman. Thank you, Mr. Chairman.
    And for the record I am wondering if you could get back--if 
we could have a summary of that action that was taken by 
noncomplying States.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Carey. Yes, sir.
    Mr. Coffman. Thank you Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Mr. Coffman. And I, again, remain 
really impressed at the positive attitude of our registrars, 
because I do know the challenges you face. And one that has 
been mentioned, I would like to know how each of you, Mr. 
Crepes, Mrs. Seiler--how do you address maintaining current 
addresses, particularly the military because of their 
deployment, their travel.
    How in the world do you keep their address current and in 
good faith make every effort and also even prior to that, 
keeping their registration current? And so, Mr. Crepes and then 
Mrs. Seiler, if you all would tell us, how do you work with 
young people and their family members, too--the military 
families--on registration and maintaining current addresses?
    Mr. Crepes. Well, we try basically to reach out to them as 
much as we possibly can. I go to talk to several high schools 
locally, which basically graduates these young adults that are 
heading into the military, then, and explain to them what the 
situation is and why they need to basically keep it updated, if 
they are wanting to vote.
    As far as if someone is deployed and sends something to us, 
we inform them through email to please keep your addresses 
updated, et cetera, with us so that we can make sure if there 
is any election that you need to vote in in the future, we can 
get you from there.
    And if there are local family members in the county from a 
reservist that is activated, the family members are contacted 
to basically try to keep the addresses updated, because they 
will have the most recent address of their deployed father or 
child or whatever--father, child, son, daughter, whoever it may 
be that is in the forward bases.
    But primarily it is through education with the high schools 
there.
    Mr. Wilson. Thank you.
    And Mrs. Seiler.
    Mrs. Seiler. Thank you Mr. Chairman. Yes, we have a couple 
of tools. I don't know that any are perfect. As I mentioned 
earlier, it would really be nice to have some sort of automatic 
database that we could run up against. But we do have our 
tracking system, which allows the voters to track their 
registration.
    They can track the address that we have on file for them, 
and so forth. So that is one avenue. We work with the bases. 
Our staff work with the bases at some of the major military 
installations to make sure that they have information, voter 
registration forms and so forth.
    We have our own voter form online, which actually serves as 
a permanent voter registration, and as we send out any 
information to the voter, if that comes back as undeliverable 
and we get updated information, we update the voter's record 
and then send them a notice that we have updated their record.
    And finally, we have noticed that with the MOVE Act, the 
voting assistance officers have been, at least in our county, 
they have been more diligent around January of each year, 
urging the service personnel to reregister to vote or to let us 
know of any address changes.
    Mr. Wilson. Well, thank you again. And it has really been 
inspiring, this hearing.
    And, Captain Jackson-Gillespie, thank you for your 
enthusiasm and service in Afghanistan.
    And, Mr. Carey, we look forward to working with you for any 
changes.
    And, again, I know personally the great work of Mr. Crepes 
and his commission.
    And, Mrs. Seiler, it is great to see you again. I am really 
honored. I had the privilege of serving with Mrs. Seiler as an 
election observer in Bulgaria in June 1990. And she and I have 
both seen the success of free and democratic elections where a 
country has evolved from, the day we arrived there, a 
totalitarian State, to be a free market democracy and a great 
ally today of the United States.
    And that is where elections can make such a difference in 
the United States and around the world.
    If there are no further questions, we shall be adjourned. 
Thank you.
    [Whereupon, at 2:47 p.m., the subcommittee was adjourned.]



=======================================================================

                            A P P E N D I X

                             July 15, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 15, 2011

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 68160.001
    
    [GRAPHIC] [TIFF OMITTED] 68160.002
    
    [GRAPHIC] [TIFF OMITTED] 68160.003
    
    [GRAPHIC] [TIFF OMITTED] 68160.004
    
    [GRAPHIC] [TIFF OMITTED] 68160.005
    
    [GRAPHIC] [TIFF OMITTED] 68160.006
    
    [GRAPHIC] [TIFF OMITTED] 68160.007
    
    [GRAPHIC] [TIFF OMITTED] 68160.008
    
    [GRAPHIC] [TIFF OMITTED] 68160.009
    
    [GRAPHIC] [TIFF OMITTED] 68160.010
    
    [GRAPHIC] [TIFF OMITTED] 68160.011
    
    [GRAPHIC] [TIFF OMITTED] 68160.012
    
    [GRAPHIC] [TIFF OMITTED] 68160.013
    
    [GRAPHIC] [TIFF OMITTED] 68160.014
    
    [GRAPHIC] [TIFF OMITTED] 68160.015
    
    [GRAPHIC] [TIFF OMITTED] 68160.016
    
    [GRAPHIC] [TIFF OMITTED] 68160.017
    
    [GRAPHIC] [TIFF OMITTED] 68160.018
    
    [GRAPHIC] [TIFF OMITTED] 68160.019
    
    [GRAPHIC] [TIFF OMITTED] 68160.020
    
    [GRAPHIC] [TIFF OMITTED] 68160.021
    
    [GRAPHIC] [TIFF OMITTED] 68160.022
    
    [GRAPHIC] [TIFF OMITTED] 68160.023
    
    [GRAPHIC] [TIFF OMITTED] 68160.024
    
    [GRAPHIC] [TIFF OMITTED] 68160.025
    
    [GRAPHIC] [TIFF OMITTED] 68160.026
    
    [GRAPHIC] [TIFF OMITTED] 68160.027
    
    [GRAPHIC] [TIFF OMITTED] 68160.028
    
    [GRAPHIC] [TIFF OMITTED] 68160.029
    
    [GRAPHIC] [TIFF OMITTED] 68160.030
    
    [GRAPHIC] [TIFF OMITTED] 68160.031
    
    [GRAPHIC] [TIFF OMITTED] 68160.032
    
    [GRAPHIC] [TIFF OMITTED] 68160.033
    
    [GRAPHIC] [TIFF OMITTED] 68160.034
    
    [GRAPHIC] [TIFF OMITTED] 68160.035
    
    [GRAPHIC] [TIFF OMITTED] 68160.036
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 15, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 68160.037
    
    [GRAPHIC] [TIFF OMITTED] 68160.038
    
    [GRAPHIC] [TIFF OMITTED] 68160.039
    
    [GRAPHIC] [TIFF OMITTED] 68160.040
    
    [GRAPHIC] [TIFF OMITTED] 68160.041
    
    [GRAPHIC] [TIFF OMITTED] 68160.042
    
    [GRAPHIC] [TIFF OMITTED] 68160.043
    
    [GRAPHIC] [TIFF OMITTED] 68160.044
    
    [GRAPHIC] [TIFF OMITTED] 68160.045
    
    [GRAPHIC] [TIFF OMITTED] 68160.046
    
    [GRAPHIC] [TIFF OMITTED] 68160.047
    
    [GRAPHIC] [TIFF OMITTED] 68160.048
    
    [GRAPHIC] [TIFF OMITTED] 68160.049
    
    [GRAPHIC] [TIFF OMITTED] 68160.050
    
    [GRAPHIC] [TIFF OMITTED] 68160.051
    
    [GRAPHIC] [TIFF OMITTED] 68160.052
    
    [GRAPHIC] [TIFF OMITTED] 68160.053
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 15, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    Mr. Carey. There are no states that require notarization for 
absentee registration or ballot request. However, one state, Alabama, 
requires one signature from a witness (U.S. Citizenship not required) 
at least 18 years old for a Federal Post Card Application registration 
or absentee ballot request. Two states, Alabama and Louisiana require 
either a Notary or two witnesses at least 18 years old (U.S. 
Citizenship not required) to sign the return voted ballot envelope. 
Recently, both states, have taken legislative action that could 
eliminate their notary and witness requirements. On June 15, 2011, 
Governor Robert Bentley of Alabama signed into law SB 55, which grants 
the Secretary of State rulemaking authority to, among other things, 
eliminate the notary and witness requirements for UOCAVA voters. 
Similarly, Louisiana has recently approved HB 524 which would eliminate 
their notary and witness requirement. The Louisiana legislation is 
currently awaiting ``pre-clearance'' from the Department of Justice 
before it can take effect.
    There are no states that require notarization for absentee 
registration or ballot request. However, one state, Alabama, requires 
one signature from a witness (U.S. Citizenship not required) at least 
18 years old for a Federal Post Card Application registration or 
absentee ballot request. Two states, Alabama and Louisiana require 
either a Notary or two witnesses at least 18 years old (U.S. 
Citizenship not required) to sign the return voted ballot envelope. 
Recently, both states, have taken legislative action that could 
eliminate their notary and witness requirements. On June 15, 2011, 
Governor Robert Bentley of Alabama signed into law SB 55, which grants 
the Secretary of State rulemaking authority to, among other things, 
eliminate the notary and witness requirements for UOCAVA voters. 
Similarly, Louisiana has recently approved HB 524 which would eliminate 
their notary and witness requirement. The Louisiana legislation is 
currently awaiting ``pre-clearance'' from the Department of Justice 
before it can take effect.
    In addition, Alaska, Virginia and Wisconsin require one signature 
from a witness at least 18 years of age on the return voted ballot 
envelope. Wisconsin further specifies that the witness must be a U.S. 
citizen. The returned voted ballot will not be counted in these states 
if the witness signature(s) are not present. [See page 24.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. WEST
    Mr. Carey. The actions taken by non complying states are summarized 
in the Department of Justice's report entitled ``Uniformed and Overseas 
Citizens Absentee Voting Act (UOCAVA) 2010 Annual Report to Congress'' 
(attached). This report states that the Department of Justice initiated 
litigation or out-of-court agreements to enforce MOVE Act amendments to 
UOCAVA in 14 jurisdictions (11 states, 2 territories, and the District 
of Columbia). The following is a brief list of the major actions taken.
    1. Enforcement Actions Following Denial of Undue-Hardship Waivers 
by the Department of Defense in six jurisdictions: Alaska, Colorado, 
the District of Columbia, Hawaii, the U.S. Virgin Islands, and 
Wisconsin.
    2. Enforcement Action for Failure to Comply with Terms of Undue-
Hardship Waiver in one state, New York.
    3. Civil Actions Filed to Enforce UOCAVA in three jurisdictions: 
Guam, Illinois, and New Mexico.
    4. Memorandum Agreements and Letter Agreements in four states: 
Kansas, Mississippi, Nevada and North Dakota. [See page 11.]

                                  <all>

</pre></body></html>
